No. 20-8063

Jn tlJt 6upreme Court of tlJt ltniteb 6tatd
DARIUS THERIOT, PETITIONER

V.
BOBVASHAW,WARDEN

ON PETITION FOR A WRIT OF

CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE SIXTH CIRCUIT

PROOF OF SERVICE
The undersigned certifies that on August 25, 2021, she served the request for
an extension of time by mailing same in an envelope bearing postage fully prepaid,
plainly addressed as follows and emailing same to the email address provided:
Christopher J. McGrath
Federal Community Defender for the Eastern District of Michigan
111 East Court Street
Suite L-100
Flint, MI 48502
mcgrathtph@aol.com
Y\."-H;l<Otafson, Legal Secretary

